         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

The State of Illinois Weatherization
Assistance Program




OAS-RA-11-01                           October 2010
                                  Department of Energy
                                    Washington, DC 20585
                                      October 14, 2010



MEMORANDUM FOR THE SECRETARY



FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The State of Illinois
                         Weatherization Assistance Program"

BACKGROUND

The Department of Energy's Weatherization Assistance Program received $5 billion under the
American Recovery and Reinvestment Act of 2009 (Recovery Act) to improve the energy
efficiency of single-family, multi-family, and mobile homes owned or occupied by individuals or
families with low incomes. Of the $5 billion, the Department awarded the State of Illinois a
3-year Weatherization Assistance Program grant of $242 million, a significant increase over the
$24 million authorized in Program Year 2009. Illinois planned to use its Recovery Act funding
to weatherize about 27,000 homes.

In Illinois, the Department of Commerce and Economic Opportunity is responsible for
administering the Recovery Act grant through 35 local agencies. The local agencies determine
applicant eligibility; perform initial home assessments to determine appropriate weatherization
measures needed; assign contractors to weatherize homes; and, conduct final inspections on
completed homes. The Community and Economic Development Association of Cook County,
Inc. (CEDA), one of the largest local agencies nationwide participating in the Weatherization
Program, was expected to receive approximately $91 million over 3 years to weatherize an
estimated 12,500 homes – almost half of Illinois' total.

In December 2009, we issued a Management Alert on The Department's Monitoring of the
Weatherization Assistance Program in the State of Illinois (OAS-RA-10-02), in which we raised
concerns regarding inadequate monitoring and substandard contractor workmanship. Based on
these concerns, we extended test work, focusing on the Illinois Weatherization Program and its
largest local agency, CEDA. This report provides the results of our review.

OBSERVATIONS AND CONCLUSIONS

Our testing revealed substandard performance in weatherization workmanship, initial home
assessments, and contractor billing. These problems were of such significance that they put the
integrity of the entire Program at risk, although Illinois and CEDA asserted during the audit that
they were in the process of improving performance. Specifically, of the 15 homes we visited in
conjunction with CEDA inspectors:
                                                2

       Twelve homes failed final inspection because of substandard workmanship. For
       example, improperly performed heating system tune-ups allowed the heating systems to
       either improperly fire or emit carbon monoxide at higher than acceptable levels;

       Eight homes had initial assessments that called for inappropriate weatherization measures
       or the assessments overlooked key measures needed to make the homes more energy
       efficient. To cite one example, a CEDA inspector identified a home where an assessor
       had inappropriately called for attic insulation when sizeable leaks in the roof would have
       significantly reduced the effectiveness of the insulation; and,

       For 10 homes, contractors billed for labor charges that had not been incurred and for
       materials that had not been installed. Billing issues appeared to be pervasive, since 7 of
       the 10 contractors in our sample were cited by CEDA for erroneous invoicing.

We also determined that CEDA had not always ensured that contractors' material costs were
reasonable. This wasteful practice could ultimately reduce the number of homes of low income
families that can be weatherized with the limited Recovery Act funds available. Additionally,
CEDA approved contractors' weatherization material costs that, in some cases, far exceeded the
price an individual consumer would pay for the same materials. The importance of managing
these costs cannot be overstated since CEDA expects to spend about $28 million for
weatherization materials over the next 3 years.

These Program execution issues resulted from a combination of problems including internal
control weaknesses, inadequate final inspections, ineffective follow-up on inspection issues, and
insufficient training. In particular:

       When we were present, CEDA inspectors conducted thorough inspections. However, in
       reviewing CEDA's past performance, we found that this had not always been the case.
       Based on our review of the State's monitoring conducted from October 2008 to February
       2010, we calculated a 62 percent final inspection error rate on those homes that the State
       had re-inspected;

       Although CEDA had required poorly performing contractors to submit proposed
       corrective actions, it had not properly followed-up to ensure improvements had been
       made. Further, even though the State had consistently cited CEDA inspectors for failing
       to identify significant workmanship deficiencies, Illinois had not adequately followed-up
       to ensure that CEDA improved its overall inspection capabilities; and,

       While CEDA and the State provided numerous technical weatherization courses to
       CEDA employees and contractors, the State had not completed its overall training plan
       and still needed to conduct a one-week contractor certification class.

Substandard weatherization work can pose health and safety risks to occupants and area
residents, hinder production, and increase Program costs. Additionally, payment of excessive
materials costs to contractors reduced the amount of funding available to: (i) weatherize homes;
and, (ii) create jobs. Collectively these problems have a direct impact on the likelihood that
Recovery Act and Program goals of stimulating the economy, creating jobs, reducing energy
demand and improving the lives of thousands of low income families will be achieved.
                                                 3


As noted in the report and as a result of our audit, CEDA reported that it has made several
changes to strengthen its program. Because the claimed improvements were made subsequent to
our audit, we were unable to evaluate the adequacy of the improvements and the impact they
may have on CEDA's Weatherization Program.

We made a number of recommendations designed to help resolve problems at the Department,
State and CEDA levels.

MANAGEMENT REACTION

The Department, State of Illinois, and CEDA provided extensive responses to our draft audit
report. They expressed concerns with specific findings and conclusions. Although the
Department stated that implementation improvements had been made to the Weatherization
Program by the State and CEDA, it acknowledged that significant work still needs to be done.

The State asserted that it had seen continual improvement in CEDA quality. Concerning
excessive materials costs, the State pointed out that CEDA had renegotiated its material and
labor prices. The State also described the extensive training that it had provided to assessors,
final inspectors and contractors.

CEDA officials stated that they had implemented programs and processes to improve the quality
of work performed and to address excessive materials costs. CEDA noted that re-inspection
failure rates had declined. CEDA officials also commented that our sample size of 15 homes
was insignificant and that our materials cost analysis may be skewed by the fact that contractors
may use higher quality materials than those in our sample.

As discussed in the body of our report, the State and CEDA asserted that they have made
improvements to their Weatherization Programs. Yet despite these efforts, we found that
workmanship quality issues continued to exist. Further, regarding CEDA's comments about our
sample size, we concluded that the results of our sample were reliable since they were
corroborated by and consistent with work done by the State of Illinois. Finally, CEDA's
assertion that contractors used higher quality materials than we used to compare materials prices
was not persuasive. CEDA was unable to provide any evidence to support its comment.

Management's comments and our response are discussed in more detail in the body of our report.
Management's comments are included in Appendix 3 in their entirety.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Chief of Staff
    Chief Financial Officer
REPORT ON THE STATE OF ILLINOIS WEATHERIZATION
ASSISTANCE PROGRAM

TABLE OF
CONTENTS

Illinois and CEDA Weatherization Programs

Details of Finding ................................................................................................................1


Recommendations and Comments.....................................................................................10



Appendices

1.    Objective, Scope, and Methodology ..........................................................................13


2.    Prior Reports...............................................................................................................15


3.    Management Comments.............................................................................................16

THE STATE OF ILLINOIS WEATHERIZATION ASSISTANCE
PROGRAM

Illinois and CEDA      The State of Illinois and the Community and Economic
Weatherization         Development Association of Cook County, Inc. (CEDA),
Programs               Weatherization Programs experienced substandard
                       performance in the areas of workmanship, initial home
                       assessments and contractor billing for labor costs not incurred
                       and materials that had not been installed. CEDA also had not
                       always ensured that contractors' materials costs were
                       reasonable, a practice that could ultimately reduce the number
                       of homes of low income families that can be weatherized with
                       available American Recovery and Reinvestment Act of 2009
                       (Recovery Act) monies. As a result of our audit, CEDA
                       reported that it has made several changes to strengthen its
                       program. Because the claimed improvements were made
                       subsequent to our audit, we were unable to evaluate the
                       adequacy of the improvements and the impact they may have
                       on CEDA's Weatherization Program.

                                     Substandard Weatherization Efforts

                       We found that 14 of the 15 homes we visited in conjunction
                       with CEDA inspectors failed final inspection because of poor
                       workmanship and/or inadequate initial assessments. Equally
                       troubling, we noted that contractors weatherizing the homes we
                       visited had, in some instances, improperly billed for the work
                       performed. Federal and State regulations require CEDA to
                       conduct final inspections. State officials informed us that final
                       inspections are performed before contractors are paid. In
                       particular, we noted:

                              Poor Workmanship: At 12 of the homes, CEDA
                              inspectors found substandard work that could have, in
                              some cases, resulted in significant property damage or
                              injury to the homeowners. In one home, 11 of the 14
                              items that the contractor should have installed or
                              repaired to improve energy efficiency failed inspection.
                              In another instance, while accompanying inspectors, we
                              found that a contractor had not corrected, as required by
                              the home's work order, improperly installed kitchen
                              exhaust ductwork, a potential fire hazard. Although
                              CEDA and certain State officials disagreed that the
                              ductwork problem posed a fire hazard, State building
                              code officials we consulted confirmed the concern.
                              Further, we observed a furnace intake vent pipe that had
                              been improperly installed and found that five of the six
                              tune-ups to heating systems had not been properly
                              performed, allowing the heating systems to either

________________________________________________________________
Page 1                                                Details of Finding
                              improperly fire or emit carbon monoxide at higher than
                              acceptable levels. Further, CEDA's own inspectors
                              cited contractors for improper insulation of attics, band
                              joists, and walls. In all, 8 of the 10 contractors that had
                              weatherized homes included in our evaluation were
                              cited for poor workmanship.

                       Our observations of poor workmanship were consistent with
                       State monitoring reports that identified widespread deficiencies
                       in weatherization work. State officials found issues such as the
                       lack of pressure release pipes on water heaters, doors
                       improperly hung, incomplete items on work orders, and heat
                       barriers around chimneys that had not been installed, causing
                       fire hazards. State officials also found instances where a
                       furnace had not been vented properly; a shut-off valve had not
                       been installed on a gas stove; and, carbon monoxide detectors,
                       smoke alarms and fire extinguishers had not been installed as
                       planned. In one home, a contractor had been paid for removing
                       siding to insert insulation, but the contractor had actually taken
                       a short cut, drilling holes through the existing siding. A
                       July 2010 State monitoring report cited a significant number of
                       gas leaks in single-family homes weatherized by CEDA
                       contractors. State officials reported that the number of gas
                       leaks verified during the monitoring review was "alarming."

                             Inadequate Initial Assessments: At eight of the
                             homes, CEDA inspectors found that assessors from
                             within its organization had either called for inappropriate
                             measures or had overlooked key weatherization
                             measures needed to make the homes more energy
                             efficient. In one home, for example, an inspection report
                             noted that an assessor had inappropriately called for attic
                             insulation when sizeable leaks in the roof would have
                             reduced the effectiveness of the insulation. In addition,
                             we found homes where inspectors cited assessors for
                             failing to identify an open sump pump, leaking water
                             lines, and a skylight that had not been properly insulated.
                             CEDA acknowledged that, due to hiring nearly 60 new
                             field personnel who were needed for the increased level
                             of weatherization work funded by the Recovery Act, it
                             had experienced "an inevitable level of inadequate
                             assessments that were not corrected or were
                             incompletely reviewed before the jobs were assigned to
                             contractors."

                             Erroneous Billing: At 10 of the 15 homes we visited,
                             CEDA inspectors found that contractors had billed a
________________________________________________________________
Page 2                                                Details of Finding
                             total of about $3,300 for labor and materials that had not
                             been installed. For example, a contractor had installed a
                             125,000 BTU boiler, but had billed CEDA for a 200,000
                             BTU boiler costing an estimated $1,000 more.
                             Additionally, a contractor had installed one carbon
                             monoxide detector, but had billed CEDA for 3; another
                             contractor had installed 12 light bulbs, but had billed
                             CEDA for 20; and, yet another had failed to install a gas
                             shut-off valve, but had billed for the work. In addition, a
                             contractor had billed for almost four times the amount of
                             drywall actually installed. Billing issues appeared to be
                             pervasive, since 7 of the 10 contractors in our sample
                             were cited by CEDA for erroneous invoicing.

                       According to CEDA officials, inspectors had identified the
                       erroneous billings during the final inspection, corrected all
                       errors at that time, and no overpayments occurred as a result of
                       the erroneous billings. However, during our review of 298
                       State re-inspections conducted between October 2008 and
                       February 2010, we identified more than 20 instances in which
                       contractors had submitted invoices and received payment for
                       work not performed. For example, in two separate cases,
                       CEDA had paid contractors to install a pump on a furnace,
                       even though the work had not been done. The State had also
                       identified instances in which contractors had been paid, but: (i)
                       had only installed one of two chimney liners; and, (ii) had not
                       installed crawlspace wall insulation and a vapor barrier as
                       called for in the work order. As a result of their re-inspection
                       findings, the State had repeatedly recommended that CEDA
                       closely monitor contractors' work to ensure the accuracy of
                       their billings. Since the State is only required to re-inspect
                       five percent of CEDA's completed homes, its findings suggest
                       a serious concern that contractors may have been paid for work
                       that had not been performed.

                       CEDA officials expressed the belief that most erroneous bills
                       submitted by contractors resulted from the lack of coordination
                       between the contractor field crews and billing operations.
                       They concluded that the lack of coordination led contractors to
                       bill from the original work order without adjusting for changes
                       made when the work was actually performed. CEDA
                       management acknowledged that billing problems may have
                       increased because of the influx of new contractor employees
                       unfamiliar with CEDA's procedures. Specifically, to
                       accommodate the increase in production resulting from the
                       infusion of Recovery Act money, CEDA's pool of contractors


________________________________________________________________
Page 3                                                Details of Finding
                       grew from 18 to 60. To its credit, CEDA told us that it plans to
                       modify its procedures and monitor contractor billings on a
                       quarterly basis.

Program	               Widespread issues with CEDA's Weatherization Program
Weaknesses	            resulted from a combination of problems including internal
                       control weaknesses, inadequate final inspections, ineffective
                       follow-up on inspection issues, and insufficient training.

                             Quality of Inspections: When we were present, CEDA
                             inspectors conducted thorough inspections and identified
                             significant workmanship and billing issues. In
                             reviewing past performance of CEDA inspectors,
                             however, we found that this had not always been the
                             case. In fact, prior CEDA inspections had overlooked
                             significant workmanship issues. Based on our review of
                             the State's monitoring conducted from October 2008 to
                             February 2010, we calculated a 62 percent final
                             inspection error rate on only those homes that the State
                             had re-inspected. During this period, the State had re-
                             inspected 298 single-family and multi-family homes
                             originally passed by CEDA inspectors and rated 185 of
                             the homes as either unacceptable or improvement
                             needed, requiring CEDA to return to the homes and
                             remedy the deficiencies found.

                             In its July 2010 monitoring report, the State rated 38 of
                             the 238 single-family and multi-family units inspected
                             (16 percent) as either unacceptable or in need of
                             improvement. When we analyzed the State's underlying
                             data, however, we found that 38 of 57, or 67 percent, of
                             single-family homes were rated either unacceptable or in
                             need of improvement. In all 38 cases, the State required
                             CEDA to return to the home to rectify problems
                             identified.

                             Further, the report cited an "alarming" number of gas
                             leaks at the single-family homes and noted that the
                             weatherization process calls for an assessor, contractor,
                             and final inspector to review a home to determine needs;
                             and, in each aforementioned phase, the detection of gas
                             leaks went unnoticed. State officials stated that the
                             failure to detect gas leaks may in part be attributed to
                             overburdened inspectors. Lacking a strong inspection
                             program, CEDA is at high risk of accepting substandard
                             contractor workmanship. In our view, continued
                             excessive failure rates are inconsistent with the standards

________________________________________________________________
Page 4	                                               Details of Finding
                            of accountability and transparency established for the
                            Recovery Act and could result in potentially dangerous
                            conditions if not identified and corrected.

                            CEDA's Follow-up on Deficiencies: Although CEDA
                            had required poorly performing contractors to submit
                            proposed corrective actions, it had not properly
                            followed-up to ensure improvements had actually been
                            made. Planned corrective action items included, for
                            example, improved communication between assessors,
                            final inspectors, and contractors; better detailed
                            information on work orders; and, more oversight of new
                            employees. However, CEDA did not have a process in
                            place to ensure that all items in the plans had been
                            addressed and that the quality of the workmanship had
                            improved. This is distressing because one of the eight
                            contractors in our sample that was cited for poor
                            workmanship had been under a prior corrective action
                            plan that had been closed in March 2010. When we
                            asked officials in two of CEDA's departments, Quality
                            Assurance and Contractor Relations, why they had not
                            followed up, we found that there was confusion as to
                            who was responsible for follow-up. In addition to the
                            lack of follow-up on individual corrective action plans,
                            we noted that CEDA had only evaluated the
                            performance of contractors once a year. Given the
                            substantial increase in the number of homes a contractor
                            may weatherize each month under the Recovery Act, we
                            believe that continual review of poorly performing
                            contractors and inspection of their work is essential. In
                            response to a preliminary draft of this report, CEDA
                            informed us that its contractor evaluation process has
                            now been significantly revamped and will include
                            quarterly evaluations on all contractors and monthly for
                            those under a corrective action plan.

                            The State's Follow-Up on Deficiencies: Illinois had
                            also not ensured that widespread workmanship and
                            inspection deficiencies were adequately addressed.
                            Even though the State had consistently cited CEDA
                            inspectors for failing to identify significant
                            workmanship deficiencies, it had not required the
                            agency to improve its overall inspection capabilities.
                            Instead, the State required CEDA to address deficiencies
                            on a case-by-case basis. Further, because of staffing
                            deficiencies, the State had not analyzed its own data to
                            identify contractors, inspectors, and assessors that had
________________________________________________________________
Page 5                                                Details of Finding
                             repeatedly failed to perform and to identify common
                             weatherization problems.

                             In our December 2009 Management Alert on The
                             Department's Monitoring of the Weatherization
                             Assistance Program in the State of Illinois (OAS-RA-
                             10-02), we recommended that the Department of Energy
                             (Department) ensure that the State develop and
                             implement a system to aggregate and track major
                             findings from local agency monitoring visits to assess
                             overall performance. State officials told us that as of
                             July 28, 2010, they had completed, but not yet
                             implemented, a tracking system to analyze monitoring
                             visit results and to identify contractors, final inspectors
                             and assessors who repeatedly fail to perform. State
                             officials indicated that delays in completion and
                             implementation of the tracking system were due to
                             staffing constraints.

                             Training: While CEDA and the State have provided
                             numerous technical weatherization courses to CEDA
                             employees and contractors, the State had not completed
                             its overall plan and still needs to conduct a one-week
                             certification class, now scheduled to begin in October
                             2010. In light of the substandard workmanship noted
                             above, implementing the certification program is
                             essential for improving contractor performance. A State
                             official informed us that training had been delayed by
                             curriculum development and staffing issues at the local
                             college providing the training.

                       CEDA officials expressed their view that the observations in
                       our audit are the result of the extraordinary expansion of the
                       Weatherization Program under the Recovery Act. Specifically,
                       CEDA reported that production tripled in Program Year 2010
                       and another 50 percent increase is expected in Program Year
                       2011. CEDA also stated that its staff grew from 53 to 149
                       individuals over a period of 9 months. CEDA also reported
                       that at the time of our visit, "CEDA was at the exact epicenter
                       of its own perfect storm; newly trained but inexperienced
                       contractors and CEDA personnel were scrambling to produce
                       assessments and completed jobs. CEDA's Training and
                       Quality Departments were straining to keep up with this influx
                       of new weatherization participants, and State resources for
                       assistance were scarce as well."



________________________________________________________________
Page 6                                                Details of Finding
                       After we surfaced issues described in this report, the
                       Department asked the State to notify CEDA of its intent to
                       terminate the agency's Weatherization Program if
                       improvements were not promptly made. In response, the State
                       issued an April 2010, "Special Conditions" letter to CEDA
                       discussing the agency's lack of productivity and poor
                       workmanship issues. The letter established expectations
                       regarding productivity increases and quality improvements. To
                       address workmanship issues, the State assigned two full time
                       monitors to oversee the local agency. We were informed that
                       because of improvements in productivity and quality
                       subsequent to the issuance of the Special Conditions, the State
                       had not terminated CEDA's Program.

Excessive Materials    CEDA approved contractors' weatherization materials costs
Costs                  that, in some cases, far exceeded the price an individual
                       consumer would pay for the same materials. In accordance
                       with State policy, contractors bill for materials at prices
                       established by CEDA. We compared the prices of seven
                       commonly used weatherization materials to those charged by
                       two local retailers and found that all seven were higher. For
                       example, CEDA's published prices for smoke alarms, fire
                       extinguishers, and thermostats ranged from about 120 percent
                       to 200 percent over the average retail price. CEDA's price for
                       compact florescent bulbs was almost three times the average
                       retail price. The price in CEDA's catalog for one 60 watt
                       compact fluorescent lamp was $3.50, while average retail was
                       $1.33. These charges were for the materials only – labor
                       charges for installation of these items were identified
                       separately.

                       We understand that carrying costs, taxes, and overhead
                       incurred by contractors may affect materials pricing. However,
                       in our opinion, prices of 120 percent to 200 percent of retail
                       appear excessive. Neither CEDA nor State officials could
                       justify such large mark-ups on materials. Officials indicated
                       that mark-ups ranging from 20 percent to 50 percent would be
                       reasonable; however, neither the State nor CEDA maintained
                       documentation to support such mark-ups. Even allowing for a
                       50 percent mark-up on smoke alarms, fire extinguishers, and
                       thermostats, prices were still dramatically above retail.

                                              Materials Pricing

                       CEDA had not complied with the State's policy for establishing
                       competitively negotiated materials prices. The policy requires
                       local agencies to solicit and average materials costs proposed

________________________________________________________________
Page 7                                                Details of Finding
                            by contractors and then, after validating those costs against
                            wholesale and manufacturer's costs, negotiate final prices.
                            Local agencies are also required to maintain documentation,
                            including vendor name, address, and price quoted per item to
                            support final pricing decisions. CEDA officials told us that for
                            about 500 products used in weatherizing homes, they had
                            averaged materials costs solicited from local contractors and
                            then benchmarked them against retailers. However, CEDA
                            could not provide documentation supporting this assertion.
                            Further, State officials reported that they had reviewed CEDA's
                            overall process for determining materials costs in its price
                            catalog by evaluating reasonableness through randomly
                            checking selected materials costs; however, they had not
                            documented their findings and conclusions and could not
                            provide supporting documentation.

                            CEDA and State officials acknowledged that the catalog prices
                            needed to be revised to better reflect the market and indicated
                            that they would make such revisions in the summer of 2010
                            during the next contract negotiation period and every year
                            thereafter. CEDA officials also indicated that they believed
                            that about 100 of the 500 products in their catalog may actually
                            have been underpriced. Because of the lack of documentation,
                            we were unable to verify these assertions or calculate amounts
                            over or undercharged. Overpaying contractors for materials
                            not only violates basic Federal grant requirements to ensure
                            that costs are reasonable, but will result in enriching
                            contractors at the expense of program participants. The
                            importance of managing materials costs cannot be overstated,
                            given that CEDA expects to exceed $28 million in materials
                            costs over the next 3 years. However, at a minimum, such
                            practices, in the end, reduce the number of homes that can be
                            weatherized with available funding and decrease the energy
                            efficiency savings realized.

Follow-Up on December In our December 2009 Management Alert, we recommended
December 2009         that the Department's Office of Energy Efficiency and
Management Alert      Renewable Energy complete required state-level, on-site
                      monitoring. Subsequent to our Management Alert, the
                      Department conducted two on-site monitoring visits resulting
                      in reports issued to the State in February and May 2010.
                      Additionally, the Management Alert made a recommendation
                      that the Department ensure that the states take specific actions
                      to manage their programs. The following table provides a
                      status of those actions that the State of Illinois reported it had
                      taken to resolve the reported weaknesses.


________________________________________________________________
Page 8                                                Details of Finding
                Status of December 2009 Management Alert Recommendations

                Recommendation                                                    Status
Conduct annual on-site monitoring of the                 The State completed annual on-site monitoring and
Weatherization Assistance Program at each local agency   implemented a tracking mechanism to ensure completion of
in accordance with program requirements.                 monitoring at each local agency in accordance with program
                                                         requirements.

Meet the Department's minimum five percent               The State met the minimum five percent requirement for
requirement for inspecting homes weatherized by each     inspecting homes weatherized by each local agency and
local agency.                                            implemented a tracking mechanism to ensure that the
                                                         minimum five percent requirement continues to be met.

Develop and implement a system to aggregate and track    The State had completed, but not yet implemented, its
major findings from local agency monitoring visits to    system to aggregate and track major findings from local
assess overall performance.                              agencies' monitoring visits.


Determine whether local agency inspectors and            The State had not yet implemented this recommendation.
weatherization contractors have received appropriate     The State currently relies on local agencies to determine
training, and where appropriate, certification.          whether inspectors and weatherization contractors have the
                                                         appropriate training and certification. The State plans to
                                                         develop a database to ensure its inspectors and contractors
                                                         have completed the State required training.
Understand requirements for inspecting weatherized       The State has demonstrated its understanding of the
units funded by the Department.                          requirements for inspecting weatherized units funded by the
                                                         Department.



                                    These efforts are positive first steps. Yet, as evidenced by our
                                    findings, significant problems at both the CEDA and Illinois
                                    levels continue to exist. A comprehensive series of effective
                                    actions will be required if an acceptable level of performance is
                                    to be achieved.

Impacts of Poor	                    Substandard weatherization work can pose health and safety
Quality Work and 	                  risks to occupants and area residents, hinder production,
Path Forward	                       increase costs, and dramatically reduce the likelihood that
                                    CEDA's Weatherization Program will achieve its goal to
                                    weatherize an estimated 12,500 homes by the end of the grant
                                    period. Additionally, payment of excessive materials costs to
                                    contractors reduces the amount of funding available to
                                    weatherize homes of individuals and families with low income
                                    and reduces the amount of funding for direct job creation.
                                    Individually and collectively these problems have the practical
                                    effect of limiting the achievement of overall Program goals.
                                    While the State has taken a number of actions designed to
                                    correct previously observed weaknesses, lingering and
                                    significant problems remain. Additional action is necessary to
                                    preserve the integrity of the Weatherization Program and to
                                    ensure that deserving households receive the services to which
                                    they are entitled.

________________________________________________________________
Page 9	                                               Details of Finding
RECOMMENDATIONS	     To address the significant deficiencies we observed during our
                     audit, we recommend that the Assistant Secretary for Energy
                     Efficiency and Renewable Energy:

                        1.	 Take immediate action to ensure that the State of
                            Illinois' Weatherization Program:

                                 a.	 Analyzes its monitoring reports to identify and
                                     recommend correction of systemic problems
                                     and to ensure that those contractors, inspectors,
                                     and assessors who repeatedly under-perform,
                                     address known weaknesses;

                                 b. Determines that the cost of materials is
                                    reasonable and supported with required
                                    documentation and establishes guidance
                                    regarding the percentage of mark-up on
                                    materials for tax, carrying cost, and overhead;

                                 c.	 Completes the implementation of the proposed
                                     State-wide weatherization training and
                                     certification for contractors and crew leads; and,

                                 d. As appropriate, takes action to suspend funding
                                    or impose other available sanctions to help
                                    achieve compliance with program quality
                                    requirements.

                        2.	 Take action to ensure that the State of Illinois requires
                            CEDA to:

                                 a.	 Improve its initial assessment and final
                                     inspection processes by examining completed
                                     and final inspected homes, analyzing results,
                                     and taking corrective action on any deficiencies
                                     noted; and,

                                 b. Implement a formal follow-up process to ensure
                                    that corrective action plans addressing needed
                                    contractor improvements have been implemented.

MANAGEMENT AND	      The Department, State of Illinois, and CEDA provided
AUDITOR COMMENTS	    responses to our draft audit report which are included in their
                     entirety in Appendix 3. The responses expressed concerns with
                     specific findings and conclusions. After reviewing the
                     comments, we made appropriate changes to our report to


________________________________________________________________
Page 10	                                Recommendations and Comments
                     address these concerns and clarify our findings and
                     conclusions. Below is a summary of their key comments and
                     our response to their comments.

                                  Management Comments (Department)

                     The Department concurred with and is holding the State
                     accountable for addressing each of the report's
                     recommendations. The Department committed to ensuring that
                     every grantee under the Weatherization Program performs high
                     quality work that meets the goals of the Recovery Act.
                     Although the Department stated that implementation
                     improvements had been made to the Weatherization Program
                     by the State and CEDA, it also acknowledged that significant
                     work still needs to be done.

                               Auditor Response to Department Comments

                     The Department's comments are responsive to our
                     recommendations.

                                      Management Comments (State)

                     In its response to our audit, Illinois officials noted that in April
                     2010, they had placed Special Conditions on CEDA's
                     Weatherization Assistance Program and had assigned two full-
                     time monitoring staff to CEDA. The State asserted that
                     although CEDA had workmanship quality issues during the
                     time frame of our audit, the State had seen continual
                     improvement in quality. Specifically, State officials citing
                     inspection results reported by CEDA noted that during the
                     weeks of March 26, 2010, June 25, 2010, and August 30, 2010,
                     failure rates were 42 percent, 23 percent, and 16 percent,
                     respectively. Concerning excessive materials costs, the State
                     pointed out that CEDA had renegotiated its materials and labor
                     prices and that the State is in the process of obtaining quotes
                     for commonly used heating systems and related components
                     and is researching appropriate contractor price mark-up for
                     materials that are supplied by the contractor. The State also
                     described the extensive training that it has provided to
                     assessors, final inspectors and contractors and indicated that a
                     Community College-based contractor training course is
                     scheduled to begin in October 2010.




________________________________________________________________
Page 11                                                    Comments
                                 Auditor Response to State's Comments

                     The State has taken actions to address issues at CEDA
                     regarding poor workmanship and excessive materials costs,
                     including the Special Conditions that it had placed on CEDA in
                     April 2010. However, as discussed in the body of the report,
                     we believe that workmanship issues on single family homes
                     remain. The State's response did not address whether it
                     concurred with our recommendations and whether it would
                     implement those recommendations.

                                    Management Comments (CEDA)

                     CEDA officials acknowledged that improvement was needed
                     and agreed with our recommendations. Officials stated that
                     they had implemented programs and process improvements to
                     address our recommendations regarding the quality of work
                     performed and excessive materials costs. CEDA noted that re-
                     inspection failure rates had declined. While agreeing with our
                     recommendations, officials commented that our sample size of
                     15 homes was insignificant and that our materials cost analysis
                     may be skewed by the fact that contractors may use higher
                     quality materials than those in our sample.

                                Auditor Response to CEDA's Comments

                     CEDA's comments were responsive to our recommendations.
                     CEDA officials plan to take actions to improve the initial
                     assessment and final inspection processes; to ensure
                     implementation of contractor corrective action plans; and to
                     reduce materials costs. However, regarding CEDA's comments
                     on sample size, our findings are corroborated by work done by
                     the State, and we stand by our conclusions regarding the
                     quality of workmanship. Additionally, although CEDA cites a
                     decline in inspection failures, we remain concerned about the
                     quality of work on single family homes.

                     Concerning excessive materials costs, CEDA officials did not
                     provide evidence to support their assertion that contractors
                     used higher quality of materials than what we had selected for
                     comparison. During our audit, we selected standard products
                     that CEDA officials had acknowledged would be acceptable if
                     used by its contractors.




________________________________________________________________
Page 12                                                    Comments
Appendix 1


OBJECTIVE
             The objective of the audit was to determine whether the Illinois
                       Department of Commerce and Economic Opportunity and its
                       largest local agency, the Community and Economic Development
                       Association of Cook County, Inc. (CEDA), were efficiently and
                       effectively meeting the goals of the Weatherization Assistance
                       Program and the American Recovery and Reinvestment Act of
                       2009 (Recovery Act).

SCOPE                  The audit was performed between February 2010 and September
                       2010, at State offices in Springfield, Illinois, and the CEDA
                       Weatherization Assistance Program in Chicago, Illinois.

METHODOLOGY            To accomplish our objective, we:

                              Interviewed CEDA and State officials;

                              Reviewed laws, regulations, policies and procedures
                              pertaining to the Weatherization Assistance Program;

                              Reviewed prior Office of Inspector General and
                              Government Accountability Office reports and other related
                              reports on the Weatherization Assistance Program;

                              Accompanied inspectors on final inspections and reviewed
                              past State monitoring reports which evaluated the
                              performance of final inspectors, as well as the performance
                              of the contractors and assessors;

                              Evaluated CEDA's cost catalog for reasonableness and
                              benchmarked seven commonly used materials costs with
                              two local retail stores; and,

                              Assessed CEDA's internal controls over its Weatherization
                              Program, including its controls over quality assurance and
                              materials cost catalog.

                       We conducted this performance audit in accordance with generally
                       accepted Government auditing standards. Those standards require
                       that we plan and perform the audit to obtain sufficient, appropriate
                       evidence to provide a reasonable basis for our finding and
                       conclusions based on our audit objective. We believe that the
                       evidence obtained provides a reasonable basis for our finding and
                       conclusions based on our audit objective. The audit included tests
                       of controls and compliance with laws and regulations necessary to
                       satisfy the audit objective. Because our review was limited, it
                       would not necessarily have disclosed all internal control

________________________________________________________________
Page 13                                   Objective, Scope, and Methodology
Appendix 1 (continued)



                       deficiencies that may have existed at the time of our audit. We
                       considered the establishment of Recovery Act performance
                       measures, which included certain aspects of compliance with
                       the Government Performance and Results Act of 1993, as
                       necessary to accomplish the objective. We conducted a limited
                       reliability assessment of computer processed data, and we
                       deemed the data to be sufficiently reliable to achieve our audit
                       objective. We held an exit conference with Department of
                       Energy officials on October 14, 2010.




________________________________________________________________
Page 14                                Objective, Scope, and Methodology
Appendix 2


                                   PRIOR REPORTS


Office of Inspector General

      Management Alert on the Department's Monitoring of the Weatherization Assistance
      Program in the State of Illinois (OAS-RA-10-02, December 2009). The report
      identified significant internal control deficiencies in the management of the
      Weatherization Program in Illinois that required immediate attention. In particular,
      the Alert revealed: (i) the State of Illinois had not inspected any of the weatherized
      units completed with the Department of Energy (Department) funds during the State's
      most recent Fiscal Year at 7 of 35 local agencies; (ii) Illinois did not have a system
      for aggregating and tracking major findings identified during on-site monitoring visits
      to local agencies; (iii) a local agency weatherization inspector failed to perform a
      required test and did not detect a furnace gas leak, which could have resulted in
      serious injury to the occupants and material damage to the structure; and, 4) the
      Department's Office of Energy Efficiency and Renewable Energy had not detected
      inspection problems because it had not performed on-site monitoring/inspection visits
      of State of Illinois activity at the required frequency.

      Management Alert on the Department's Monitoring of the Weatherization Assistance
      Progress in Implementing the Department of Energy's Weatherization Assistance
      Program Under the American Recovery and Reinvestment Act (OAS-RA-10-04,
      February 2010). The audit was initiated to provide the Department with an interim
      status report highlighting factors impacting progress in meeting Weatherization
      Assistance Program and the American Recovery and Reinvestment Act of 2009
      (Recovery Act) goals. The report noted that the Department had taken a number of
      proactive steps to foster timely implementation of the Weatherization Program.
      However, in spite of the Department's efforts, grantees had made little progress in
      weatherizing homes. As of February 2010, the one-year anniversary of the Recovery
      Act, only a small percentage of Recovery Act weatherization funds had been spent
      and few homes had actually been weatherized. Only $368.2 million (less than 8
      percent) of the total award of $4.73 billion had been drawn by grantees for
      weatherization work. Corresponding to the low spending rates, grant recipients fell
      significantly short of goals to weatherize homes.




________________________________________________________________
Page 15                                                  Prior Reports
Appendix 3 




                                         Department of Energy
                                          oc't'~9l!m DC 20585



       MEMORANDUM FOR:               Rickey R. Haas
                                     Deputy Inspector General
                                      for Audit Services
                                     Office of Inspector General

       FROM:                         Kathleen B. Hog;;rh"'MH}c::;::::===­
                                     Deputy Assistanl;.!c/e'i.;ry ~
                                      for Energy EffiCIency
                                     Energy Efficiency and Renewable Energy

       SUBJECT:                      Response to Recommendations proposed in Office of Inspector General
                                     (DIG) Draft Audit Report on "The State of Illinois Weatherization
                                     Assistance Program"

       The Office of Energy Efficiency and Renewable Energy (EERE) appreciates the opportunity to review the
       Office ofInspector General's Draft Audit Report <'The State of Illinois Weatherization Assistance
       Program" and concurs with the report's recommendations. The Department of Energy is strongly
       committed to ensuring that each of the grantees under the Weatherization Program performs high
       quality work that meets the goals of the Recovery Act. In response to DOE concerns and
       corrective action plans, the State of Illinois and CEDA have made a number of improvements in
       how they implement the weatherization program. However, as this report shows, there is
       significant work still to be done. The Department will continue to aggressively monitor progress
       in the areas identified by the Inspector General.

       As part of the Department's monitoring and oversight process, the state of Illinois will be
       required to submit written responses providing documentation showing that contractors are
       providing quality work to local homeowners and detailing the processes in place to ensure
       taxpayer funding is well spent. This will include describing the steps taken to ensure that under­
       perfonning contractors, inspectors and assessors have addressed their weakness, as well as
       documenting how the state and local agencies detennine reasonable costs for weatherization
       materials.

       Additionally, DOE will continue to monitor and report on the implementation of statewide
       weatherization training and certification programs. For example, in August, CEDA hosted its
       annual weatherization conference which involved approximately 300 CEDA staff and
       contractors and focused on implementing newly published work standards, exchanging best
       practices from the field, and maximizing the quality of customer service.

       Finally, the state will be required to report on the imposition of sanctions as needed to help
       achieve compliance with program quality requirements, along with providing a written update on
       the corrective actions taken to improve CEDA's processes for initial assessment and final
       inspection of weatherized homes.




                                         *    Printed with soy if\k on recycled paper




________________________________________________________________
Page 16                                         Management Comments
Appendix 3 (continued)





       Additional responses are included below that address the specific recommendations in the draft
       report:

           1.    Take immediate action to ensure that the State of Illinois' Weatherization
                 Pro:gram:

                    a. Analyzes its monitoring reports to identify and recommend correction of systemic
                       problems and to ensure that those contractors, inspectors and assessors who
                        repeatedly under-perform address known weaknesses;

                    RESPONSE: EERE will continue to monitor the quality of work performed under the
                    Illinois WAP, and will require a written response from the Stale describing/ollow-up
                    and resolution ofpoor workmanship issues to ensure that those contraclors,
                    inspectors, and assessors who repeatedly under-perform address known weaknesses.
                    Estimated Completion Date: On-going as part of quarterly reviews

                    b. Determines that the cost of materials is reasonable and supported with required
                       documentation and establish guidance regarding the percentage of mark-up on
                       material for tax, carrying cost and overhead;

                    RESPONSE: EERE will require the State to provide a written description of their
                    procedure for determining that the cost of materials reported by subgrantees is
                    reasonable and supported with required documentation. This response will include a
                    description of the guidance provided by the State to its subgrantees regarding how
                    costs are determined Jor materials and overhead, noting any recent updates to
                    policies and procedures as applicable. The Department will also review the state 's
                    monitoring reports oJits subgrantees to confirm that procedure is beingfollowed
                    Estimated Completion Date: November 2010

                    c. Completes the implementation of the proposed State-wide weatherization training
                       and certification for contractors and crew leads; and,

                    RESPONSE: EERE will continue to monitor and report on the implementation oj
                    statewide weatherization training and certification for contractors and crew leads.
                        Training Update: The CEDA Annual WAP Conference was held the week of
                        8126110. This weeklong conference involved approximately 150 CEDA staffand
                        150 contractor staff, and covered topics such as: teambuilding, maximizing
                        quality of customer service, exchange of best practices from the field, and the
                        implementation of newly published Illinois State 2010 WAP Work Standards
                        Estimated Completion Date: On-going as part of quarterly reviews

                    d. As'appropriate, takes action to suspend funding or impose other available
                       sanctions to help achieve complianc~ with program quality requirements.

                    RESPONSE: EERE will require the State to report on the imposition of any type of
                    sanction imposed on a subgrantee as a result of a failure to comply with program




________________________________________________________________
Page 17                                         Management Comments
Appendix 3 (continued)





              quality requirements. Generally, when a finding occurs through monitoring and
              oversight, subgrantees take immediate action to correct the noted deficiency. In those
              cases where corrective action is inadequate or non-responsive, the state will impose
              additional sanctions and report those actions to EERE. These sanctions can be in the
              fonn of corrective action plans filed by the subgrantee, expanded monitoring
              requirements by the state, questioning of costs for services delivered but
              unacceptable, or suspension of project activity while corrective actions are being
              implemented. The type and scope of any sanction is detennined by the findings of
              the monitoring or oversight and the subgrantee's response to those findings.
              Estimated Completion Date: Within 30 days of response to the Report


        2. Take action to ensure that the State of Illinois requires CEDA to:

               a. Improve its initial assessment and final inspection process by examining
                  completed and final inspected homes, analyzing results, and taking corrective
                  action on any deficiencies noted; and,

               RESPONSE: EERE will require the State to provide a written update on the
               corrective actions taken to improve CEDA 's processes for initial assessment and final
               inspection of weatherized homes. This report will include a description of corrective
               actions taken to address any noted deficiencies.
               Estimated Completion Date: Within 30 days of response to the Report

               b. Implement a fonnal follow-up process to ensure that corrective action plans
                  addressing needed contractor improvements have been implemented.

               RESPONSE: EERE will require the State to provide a written update on the
               implementation of a formal follow-up process for corrective action plans at CEDA.
               Estimated Completion Date: On-going in response to follow-up/Required




________________________________________________________________
Page 18                                         Management Comments
Appendix 3 (continued)





                                     Illinois Department of Commerce & E(onomi( Opportunity
                                                     Pat Qulnn, Governor· Warren Rlbley, Director



            September 22, 2010

            Gregory H. Friedman
            Inspector General
            United States Department of Energy
            Washington, DC 20585

            Dear Mr. Friedman:

            This document provides our comments to the U. S. Department of Energy Office of Inspector General Draft
            Audit Report transmitted via email to my office on September 8, 2010. In this Audit Report, several areas of
            concern were identified at both the State and local administering agency levels of the Illinois Home
            Weatherization Assistance Program. The State of Illinois appreciates your office's practice of coordinating
            with subject of the audit during draft report development. However, we remain concerned about
            perceptions projected by the report upon the Illinois Home Weatherization Assistance Program. We
            respectfully submit the following responses to the observations and conclusions noted in the
            September 8, 2010 report.


                                                           BACKGROUND

            DOE OIG: /lIn December 2009, after completing site visits to two Illinois local agencies including the
            Community and Economic Development Association of Cook County, Inc. (CEDA), we issued a Management
            Alert on the Department's Monitoring 0/ the Weatherization Assistance Program in the State 0/ Illinois. The
            report discussed our concerns regarding inadequate monitoring and substandard workmanship."

            Illinois Comment: The December 2009 Management Alert had no direct references to any monitoring issues
            or substandard contractor workmanship as relates to CEDA.




                                               OBSERVATIONS AND CONCLUSIONS

            Substandard Weatherization Efforts

            DOE OIG: Page 2 ~ "We found that 14 of the 15 homes we visited, in conjunction with ceDA inspectors, failed
            final inspection because of poor workmanship and/or inadequate initial assessments."




                                                              www.ildceo.net
                                                               JGm~s i. lhompsGn Ci!I!ter
             500 East Mutrot                                                                                    23119 Ww lllain. Suite 118
      Sprirogfitld,IUil\(lls62101·1643                    100 Wullunclolph SIfeeI, Suite 3400                  MIlrlon,lIIinois 62959·11BII
   217/782.1500 • roD: 8OO/78s.60SS                            Chimgo, 1111110ls 60601.3219
                                                          312/814-7119 • TDO: 8011/785-6055                618/nr-4394 • roD: JOO/78S-60S5
                                                       ',;u.lo. a"y<loi .. d 't<fct.bt. ',po,




________________________________________________________________
Page 19                                         Management Comments
Appendix 3 (continued)





      DOE OIG Response
      Page 2 of 6

      illinois Comment: The 15 homes cited above were not completed and CEDA Inspectors were conducting final
      Inspections to determine if the homes could be passed as Completed units. The fact that CEDA did not pass
      these homes is proof that their Final Inspection system was in fact working.



      poor Workmanship

      DOE OIG: Page 2, Paragraph 1- The draft report states, "we observed a kitchen exhaust fan that had been
      vented to the attic rather than to the outside, causing a potential fire hazard ... "

      Illinois Comment: The pre-existing kitchen exhaust fan (installed by the homeowner, not the IHWAP) while
      not a potential fire hazard, was noted by the inspector to be corrected before the home could be conSidered
      acceptable. Failed final inspection rates have been continually failing since Mach 2010. The rates have fallen
      from 42% in March to 16% In August. We attribute this reduction to Increased quality control monitoring by
      State staff and technical assistance training. The training provided to contractors, assessors and inspectors is
      detailed on page 4 of this letter.



      Inadequate Initial Assessments

      DOE DIG: Page 2, Paragraph 1- The draft report states, "At eight of the homes, CEDA inspectors found that
      assessors from within its organization had either called for inappropriate measures or had overlooked key
      weatherization measures needed to make their homes more energy efficient."

      Illinois Comment: It should be pOinted out that the CEDA Inspectors were in fact acting as an appropriate
      "check and balance" in order to maintain a good quality of weatherization assessment and work.



      Erroneous Billing

      DOE OIG: Page 2, Paragraph 3 - At 10 of the 15 homes we visited, CEDA inspectors found that contractors
      had billed a total of about $3,300 for labor and materials that had not been installed."

      Illinois Comment: It should be pOinted out that the CEDA inspectors identified the billing problems and
      corrected them before any overpayments occurred. Since none of these erroneous bills were actually paid
      by CEDA, we request that this section be removed from the report. If it remains, it will give the average
      reader the impression that CEDA improperly paid for labor and materials that were not received.




________________________________________________________________
Page 20                                         Management Comments
Appendix 3 (continued)





      DOE OIG Response
      Page 30f6

      Program Weaknesses

      Quality of Inspections

      DOE OIG: Page 3, Paragraph 4 - "When we were present, CEOA inspectors conducted thorough
      inspections and Identified significant workmanship and billing issues. In reviewing past performance of
      CEDA inspectors, however, we found that this had not always been the case."

      illinois Comment: CEDA and their contractors have improved their overall quality of work. Some examples
      of this improvement regarding CEDA's failed final inspection rate are: week of March 26 - 42% failed;
      week of May 21-32% failed; week of June 25 - 23% failed; week of August 30 -16% failed. CEDA's final
      inspection process is working well, and the Office of Energy Assistance will continue to monitor this
      improving situation.

      DOE 016: Page 3, Paragraph 4 .. "Based on our review of the State's monitoring reports from October
      2008 to March 2010, we caieulated a 59 percent final inspection error rate on single-family homes that
      the State had re-inspected."

      Illinois Comment: DCEO's last large-scale monitoring of CEDA in June 2010 showed a final inspection error
      rate of 8%. We looked at 239 units total and found 19 units to be unacceptable. We will continue to work
      with CEDA to improve this error rate. DeED has assigned two full-time monitoring staff to CEDA on a
      constant basis.

      DOE OIG: Page 4, Paragraph 1- "Specifically, monitoring data indicated that 38 of 57 single-family homes
      re-Inspected by the State, or 67 percent, failed the State's re-Inspection. Additionally, 51 of 181, or 28
      percent of multi-family units also failed re-inspe.ction."

      illinois Comment: Of the 57 homes noted above, only 19 failed the State's re-inspection. The other 19
      homes were categorized as acceptable, but improvement was needed. The State realizes that these
      categories can be confusing and will be going to a "Pass or Fail" system in the 2nd quarter of PY2011. In
      addition, during the June 2010 DCEO monitoring visit, a state weatherization monitor failed a 51-unit
      multifamily building due to an improperly placed natural gas shut off valve to a boiler, even though all other
      work on the building was acceptable. The state monitor noted that the boiler's gas valve was placed too high
      to reach. As a result, all 51 units were failed. CEOA appealed this decision in August 2010, citing that in fact
      the gas valve was for a water heater and not the boiler, and was properly placed. On September 9, 2010, a
      State Weatherization Supervisor and Weatherization Monitor accompanied CEOA staff to review the
      building. Upon re-inspection and examination of documentation and photographs (before and after the
      work), OEA determined that the rating for the building should be changed to "acceptable." The original gas
      valve was indeed for the water heater and appeared to be approximately 5'4" from the floor.




________________________________________________________________
Page 21                                         Management Comments
Appendix 3 (continued)





      DOE OIG Response
      Page 4 of 6

      During our monitoring process, we did find several homes that had minor gas leaks. None of these leaks
      were a result of any of the weatherization work that was done. We found these leaks in existing piping while
      conducting a thorough inspection of the dwelling. These problems should have been found at the time of
      assessment, arfinal inspection. The State of Illinois takes all gas leaks seriously. As a result, we immediately
      conducted additional training with all of CEDA's assessors, final inspectors, and contractors on June 12, 2010.

      The State's Follow-Up on Deficiencies

      DOE OIG: Page 4, Paragraph 3 - "Illinois had also not ensured that widespread workmanship and inspection
      deficiencies were adequately addressed. Even though the State had consistently cited CEDA inspectors for
      falling to identify significant workmanship deficiencies, it had not required the agency to improve its overall
      inspection capabilities. Instead, the State required CEDA to address deficiencies on a case-by-case basis.
      Further, because of staffing deficiencies, the State had not analyzed its own data to identify contractors,
      inspectors, and assessors that had repeatedly failed to perform and to identify common weatherization
      problems."

      illinois Comment: DCED placed Special Conditions on CEDA's weatherization grants for quality and
      production and provided final inspection training to CEDA in June and August of 2010. The Special
      Conditions letter sent to CEDA on April 12, 2010 explicitly stated our concerns regarding their weatherization
      work quality and low production numbers. The letter states, "Failure to correct the serious problems noted
      and successfully complete the 2010 Weatherization grants in a satisfactory manner may result in the
      termination of the four Weatherization grants, thereby requiring the Department to seek another local
      provider for the Weatherization program in Cook County ... DCED will randomly inspect completed units for
      quality control purposes and if more than 20% are rated unacceptable, this will result in a failure."
      The State has completed and implemented a sharepoint-based monitoring system that now allows staff to
      identify poorly performing contractors, inspectors, and assessors.




      DOE OIG: Page 5, Paragraph 2 - "More than a year into the Recovery Act, the State had not completely
      implemented its planned weatherization training for owners contracting with CEDA and their crew leads. The
      training curriculum was intended to address topics such as heat loss and construction fundamentals and to
      certify contractors for weatherization work."

      Illinois Comment: DCEO and CEDA have conducted extensive Weatherization training with assessors, final
      inspectors and contractors. In calendar year 2010 these individuals have received:

          •   HVAC training in February
          •   Assessor and lead Renovator training in March
          •   Assessor and Air Sealing training in April
              Assessor and Multi-family training in May




________________________________________________________________
Page 22                                         Management Comments
Appendix 3 (continued)





       DOE DIG Response
       Page S of 6

          •   DCED Weatherization Standards training (for ali groups) in June
          •   WeatherWorks Catalog training In July
          •   Weatherization Quality and Best Practices training(for ali groups) and Final Inspector training in
              August
          •   Air Sealing; Dense-Pack Insulation training and Diagnostic training four contractors in September

       The Community College-based contractor training is scheduled to begin the week of October 4, 2010. The
       pilot one-week class was held in July of 2010. Instructors from 11 Community Colleges across Illinois were
       trained during two weeks in mid-August.

       In addition, DOE has awarded the state of Illinois two Training Center grants that began this month. In the
       North, the Weatherization training center will be In Chicago at Wilbur Wright College. The other Training
       Center will be located in Champaign, Illinois at the University of Illinois, Building Research Center. DOE is
       convening a Training Center meeting in early October. These two Training Centers will greatly enhance the
       overall weatherization training methodology and allow us to standardize training opportunities across the
       state.


       Excessive Material Costs

       DOE OIG: Page 5, Paragraph 5 -IICEDA approved contractors l weatherization material costs that, in some
       cases, far exceeded the price an individual consumer would pay for the same materials. In accordance with
       State policy, contractors bill for materials at prices established by CEDA. We compared the prices of seven
       commonly used weatherization materials to those charged by two local retailers and found that all seven
       were higher.H

       Illinois Comment:   We understand that the prices that CEDA was paying for their compact fluorescent lights
       have greatly decreased in the two years since they were last bid at the agency. CEOA has renegotiated their
       material and labor prices to begin this year's weatherization program. It was difficult to determine if the
       types and brands of building materials that the OIG used for comparison were the same types and brands
       used in the IHWAP. If possible, please forward this information to Randy Bennett, IHWAP Program Manager,
       Office of Energy Assistance.

       DCEO is also in the process of obtaining quotes for commonly used heating systems and related components.
       We believe this could result in a substantial savings for the program. We are also researching appropriate
       contractor price mark-up for materials that are supplied by the contractor and not warehoused.




________________________________________________________________
Page 23                                         Management Comments
Appendix 3 (continued)





      DOE DIG Response
      Page 6 of6


                STATUS OF DECEMBER 2009 MANAGEMENT ALERT RECOMMENDATIONS

      DOE DIG Recommendation 3: Page 7 - "Develop and implement a system to aggregate and track major
      findings from local agency monitoring visits to assess overall performance:'

      DCED Status: This SharePoint system has been completed and is currently being used by Weatherization
      staff.

      DOE OIG Recommendation 4: Page 7 - "Determine whether local agency inspectors and weatherization
      contractors have received appropriate training, and where appropriate, certification.1I

      DeEO Status: The State of illinois has offered a significant amount of training to its Weatherization network.
      The only remaining item is the (1) week contractor training and certification through 12 of "'inois'
      Community Colleges. This training is scheduled to start the week of October 4, 2010.




       cc: Cathy Zoi, Assistant Secretary for EERE
           Jack Lavin, State of Illinois Chief Operating Officer
           Warren Ribley, DCEO Director




________________________________________________________________
Page 24                                         Management Comments
Appendix 3 (continued)





                                            flCEDACEDA Weatherization Comments:

                                                        Draft Audit Report on

                                     "The State of Illinois Weatherization Assistance Program"

                                                         September 20,2010

       Letter of Transmittal: Thank you for the opportunity to respond to the OIG "Draft Audit Report" and for incorporating
       some of the comments and changes CEDA recommended earlier in our response to the OIG "Coordination Draft".
       CEDA's latest comments were prepared within the ten working day requirement following the thirty plus days OIG
       used to prepare the "Draft Report" after our initial response. We have attached the original CEDA "Comments~ and
       supporting documents to comply with the requirement we restrict our comments to two pages while responding to
       OIG's detailed ten page Draft. We believe that such restriction limits the possibility of a nuanced and balanced
       reading by press and policy makers alike. Many will read the full published OIG detailed report, but few will drill
       deeper to read CEDA's "Attachments".

       CEDA General Observations: CEDA requests the inclusion in the Draft of the characterization by OIG of CEDA's
       cooperation in the inspection process as ~excellenl". We also request that the inclusion of quotes from CEDA's
       response to the Coordination Draft be put into proper context as they relate to delays in funding due to Davis Bacon
       implementation, not as a general comment regarding quality issues.

       CEDA was informed by DIG that the description of a kitchen fan improperly venting to the attic as creating a Ufire
       hazard" was confirmed by Illinois State code officials. CEDA is aware that venting kitchen fans directly to attics is not
       in compliance with certain codes, but would like clarification on which code issues and which code official stated that
       venting to the attic creates a ufire hazard". We want to address changing the health and safety cost limitations with
       DC EO to re-vent kitchen fans in all circumstances considering this code reference. OIG also stated that any
       unchanged observations by OIG indicated disagreement with CEDA's earlier explanations. Without written
       explanation of why DIG disagreed with CEDA's earlier Comments, it is not possible for CEDA to respond 10
       restatements of the Coordination Draft except by including copies of CEDA's original Comments.

       BACKGROUND: The first sentence of the last paragraph implies that DIG's Management Alert was a response to
       CEDA workmanship. That is not the case, and it needs to be clarified that no CEDA homes were referenced in the
       Alert.

       OBSERVATIONS AND CONCLUSIONS: What are the Uthree commonly used materials we tested"? If one is caulk,
       CEDA has explained it uses a higher grade of caulk than what was tested for pricing at two big box stores. We have
       upgraded our catalog descriptions to avoid the possibility of a cheaper grade being substituted. If another item is
       thermostats. CEDA has explained its contractors purchase higher grade and warranted units through HVAC
       distribution channels. If the third is CFLs, we have adjusted prices downwards. We have also changed our catalog
       review frequency from a tWo year interval to every year. The entire paragraph of observations and conclusions takes
       broad-based swipes at CEDA's quality with no balancing comments about CEDA's changes, although some of these
       are mentioned deeper into the Draft.

       Substandard Weatherization Efforts: These deficiencies were discovered at the time of final inspection, as designed.
       CEDA acknowledges that assessments and contractor performance during the DIG inspection required improvement
       and has put in place substantial revisions and improvements to its operating departments.

       CEDA previously pointed out that the results of the DIG inspection which found fail items in 14 of 15 homes visited
       are inconsistent with CEDA and DCEO results and that this sample size is insufficient to provide statistical
       significance. We have demonstrated that no home furnaces were producing CO in excess of Standards. We disagree
       that an improperly vented kitchen fan creates a "fire hazard" as thousands are installed and are in place improperly
       vented into attic spaces. Please provide us with information concerning a furnace intake pipe being improperly
       installed as this is a new observation.




________________________________________________________________
Page 25                                         Management Comments
Appendix 3 (continued)





                                                                                                                          2.

      Drilling and plugging was a formerly approved method of installing sidewall insulation. Although less attractive than
      the current method of pulling siding before drilling, there is no deleterious effect on the efficiency of the installed
      insulation. CEDA believes the reference to gas leaks refers to one home where the contractor had returned after

      initial Final Inspection and created a very dangerous situation. That contractor has been terminated from CEDA
      Weatherization. Please provide CEDA with information regarding this comment.

      Inadequate Initial Assessments: The home with the roof leaks was retumed to after leaks were reported and
      insulation moved to protect its performance. Unfortunately, CEDA does not have funds available for roof replacement,
      thus moving the insulation from beneath the leaks was the only viable solution.

      The out of context quote in this paragraph should not be included unless reference is also made to the quality
      improvements CEDA has put in place.

      Erroneous Billing: Absolutely no erroneous payments were made to contractors as was previously painted out.

      Quality of Inspections: Closer examination will show that workmanship issues peaked in the fall 2009 to early spring
      2010 period, consistent with the highest departmental and contractor stress relating to ramp-up. Since then, as
      reflected in the most recent AHOD inspection in June, CEDA's fail rate has declined. The June AHDD showed an
      overall fail rate of B% which CEDA believes will be even lower after DCEO reviews certain challenges CEDA will
      make on single-family homes. Please revise this paragraph given the newly supplied data. Further, following earlier
      AHDDs, a number of job fails were challenged by CEDA and those challenges were supporled by DCED. These
      challenges were not reflected in the statistics cited by DIG but will result in a lower fail rate than reported.

       CEDA's Follow·up on Deficiencies: As reported, CEDA has significantly revamped its contractor evaluation process.
       CEDA is also reinstituting the CEDA Contractor Council, charged with quality and process improvements for
       Weatherization. Participants will be notified and quarterly meetings will begin before the end of October. The Quality
       Department will also review all State fails with the assessors, contractors, and final inspectors assigned to the failed
       job.

       Training: CEDA has implemented an extensive contractor training initiative and has recently supplied DCEO with a
       complete list of contractor trainings held and planned. As stated, the quote in the following paragraph should be put
       into the context of delayed availability of ARRA funding and extraordinary pressure to ramp·up production. CEDA has
       improved production with an accompanying improvement in quality. Indeed, they are to a degree interdependent. We
       realize we need to make further progress and we are implementing plans and programs to meet the commitment of
       the ARRA.

       Excessive Material Costs: All of the items mentioned in the DIG Draft were addressed and changed, if appropriate, in
       CEDA's recent contractor procurement process which has occurred every two years. CEDA wilt open catalog
       negotiations each year moving forward to better reflect changing market pricing. Certain electronic items have traced
       a continual downward path for years, such as CFLs and digital setback thermostats. Other construction materials
       behave as commodities and will rise and fall based on construction activity andlor supply disruptions for raw
       materials. OIG states ~These charges were for materials only-labor charges for installation of these items were
       identified separately". This sentence leaves the impression that labor charges are excessive as well, when no such
       evidence is presented or even discussed. Please eliminate this sentence in its entirety.

       Materials Pricing: CEDA has been unable to locate certain supporting documentation relating to past catalog
       negotiations. However, we believe and have been advised by DCED historically that we have been in compliance
       with State Policy. We did supply documentation concerning furnace and boiler pricing indicating CEDA receives far
       lower than retail and builder pricing for furnaces at $2600 installed for 90%+ units and boilers installed for $3400. And
       we remain confident that any inaccuracies in our catalog priCing overall do not produce significantly inaccurate
       payments to contractors.

       Final CEDA Comments: CEDA agrees with OIG's recommendations regarding the goal of CEDA improving its initial
       assessment and final inspection process. CEDA has implemented programs and process improvements to address
       those goals (see attachments), and has also begun a formal follow-up process to ensure corrective action plans
       addressing needed contractor improvements have been implemented.




________________________________________________________________
Page 26                                         Management Comments
Appendix 3 (continued)




      CEDA is appreciative of the courtesy and consideration extended by the DIG and the opportunity to express its
      opinions regarding the Draft Report. Please contact us with any questions regarding these Comments or any other
      issues regarding the preparation of the Final Report.




________________________________________________________________
Page 27                                         Management Comments
                                                          IG Report No. OAS-RA-11-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding
    this report?

2.	 What additional information related to findings and recommendations could have
    been included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's
    overall message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the
    issues discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should
    we have any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
